No. 20-579

In the Supreme Court of the United States
ZIMMIAN TABB, PETITIONER,
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT

SUPPLEMENTAL BRIEF FOR THE PETITIONER
RICHARD E. SIGNORELLI
LAW OFFICE OF
RICHARD E. SIGNORELLI
52 Duane Street
7th Floor
New York, NY 10007
(212) 254-4218

JOHN P. ELWOOD
Counsel of Record
R. STANTON JONES
ANDREW T. TUTT
SAMUEL F. CALLAHAN
NORA ELLINGSEN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

SUPPLEMENTAL BRIEF FOR THE PETITIONER

Petitioner submits this supplemental brief to bring to
the Court’s attention a Second Circuit decision, United
States v. Wynn, 845 Fed. Appx. 63 (2021), issued after the
filing of petitioner’s reply brief and first supplemental
brief.
1. Wynn, applying the decision below in this case, rejected the argument “that the definition of a ‘controlled
substance offense’ under Section 4B1.2(b) does not include inchoate offenses such as conspiracy.” 845 Fed.
Appx. at 65. Wynn affirmed the Second Circuit’s holding
that the Sentencing Commission had “authority to expand
the definition of ‘controlled substance offense’ to include
aiding and abetting, conspiring, and attempting to commit
such offenses.” Id. at 66. (quoting United States v. Jackson, 60 F.3d 128, 133 (2d Cir. 1995)).
In doing so, the court confirmed that the Second Circuit has “addressed th[e] methodological question” regarding the effect of Kisor on reflexively deferential precedent. Opp. 18; see Reply 4. The court explained:
Wynn argues that the reasoning in Jackson has been
undermined by the Supreme Court’s decision in Kisor v.
Wilkie, 139 S. Ct. 2400 (2019). As a threshold matter,
although our decisions in Tabb and Richardson do not
explicitly address whether Kisor unsettles Jackson, Kisor was decided well before Tabb and Richardson, and
the Kisor argument advanced here was briefed and discussed at length during oral argument in Tabb. Moreover, both Tabb and Richardson made clear that Jackson
is still binding precedent in this Circuit. See Tabb, 949
F.3d at 87 (“[W]e find that Jackson precludes Tabb’s argument that Application Note 1 is invalid.”); see also
Richardson, 958 F.3d at 155 (rejecting the same because
it “contradicts our holdings in Tabb and Jackson.”).
(1)

2
Accordingly, based upon binding precedent, Wynn’s
procedural challenge to the Guidelines calculation fails.
845 Fed. Appx. at 66.
Wynn thus confirms that this case presents methodological questions that the Sentencing Commission is unable to resolve.1 Wynn also confirms that the questions
presented are frequently recurring. Just since petitioner
filed a supplemental brief on March 3, there have been at
least six decisions from six different circuits reaffirming
their circuit precedent on the application of Section 4B1.2
to inchoate offenses—and whether Guidelines commentary is entitled to deference. Those decisions demonstrate
that the circuit split at issue here is entrenched and will
not be resolved without this Court’s intervention. Compare United States v. Reaves, __ Fed. Appx. __, 2021 WL
1884884, at *2 (3d Cir. May 11, 2021) (holding that Kisor
“put guardrails around the deference that should be given
to agency interpretations”; thus “[d]eference should not
be reflexive,” and must not be afforded unless a Guideline
is “genuinely ambiguous” (cleaned up)); United States v.
Jackson, 995 F.3d 476, 482 (6th Cir. 2021) (holding that “in
light of [United States v.] Havis, [973 F.3d 603 (6th Cir.
2020) (en banc)], conspiracy to distribute controlled substances is not a ‘controlled substance offense’ under
§ 4B1.2(b)”), with United States v. Webster, 844 Fed.
Appx. 937, 939 (8th Cir. 2021) (per curiam) (rejecting
United States v. Winstead, 890 F.3d 1082, 1090-1092 (D.C.
Cir. 2018), because “[United States v.] MendozaFigueroa[, 65 F.3d 691 (8th Cir. 1995) (en banc)] remains
binding on us”); United States v. Crosby, 838 Fed. Appx.
891, 893 (5th Cir. 2021) (per curiam) (disagreeing with
Even if the Commission in theory could resolve these questions,
which it cannot (Pet. 17-19), the Commission still lacks a quorum
and there still have been no nominations. The sole current Commissioner was confirmed in 2017 and his term expires this October.
1

3
“case law from the D.C. Circuit, which held that the commentary to § 4B1.2 impermissibly expanded the definition
of ‘crime of violence’ ” (citing Winstead)); United States v.
Smith, 989 F.3d 575, 585-586 (7th Cir. 2021) (noting “different approach[es]” taken by courts in circuit split, but
agreeing with Second Circuit’s Tabb decision); Wynn, 845
Fed. Appx. 63 (following Tabb).
2. This case is the best vehicle for resolving these frequently recurring methodological questions. The government has identified no impediments to this Court’s review. Compare Lovato v. United States, No. 20-6436; Jefferson v. United States, No. 20-6745; Clinton v. United
States, No. 20-6807. Both questions presented were
squarely raised below, see Wynn, 845 Fed. Appx. at 66,
and resolved in a published opinion. Compare Davis v.
United States, No. 20-6242; Roberts v. United States,
No. 20-7069; O’Neil v. United States, No. 20-7277;
James v. United States, No. 20-7533. And resolution of the
questions presented will have a dispositive and dramatic
effect for Mr. Tabb, whose current 10-year sentence is triple his non–career offender Guidelines range. Compare
Sorenson v. United States, No. 20-7099 (33-month sentence within non–career offender range).

4
CONCLUSION

The Court should grant the petition for a writ of certiorari.
Respectfully submitted.
RICHARD E. SIGNORELLI
LAW OFFICE OF
RICHARD E. SIGNORELLI
52 Duane Street
7th Floor
New York, NY 10007
(212) 254-4218

JUNE 2021

JOHN P. ELWOOD
Counsel of Record
R. STANTON JONES
ANDREW T. TUTT
SAMUEL F. CALLAHAN
NORA ELLINGSEN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

